<html>
<title> - LAW ENFORCEMENT EFFORTS WITHIN THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



   LAW ENFORCEMENT EFFORTS WITHIN THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2004

                               __________

                             Serial No. 83

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
91-604                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

TOM FEENEY, Florida                  ROBERT C. SCOTT, Virginia
BOB GOODLATTE, Virginia              ADAM B. SCHIFF, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
MARK GREEN, Wisconsin                MAXINE WATERS, California
RIC KELLER, Florida                  MARTIN T. MEEHAN, Massachusetts
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia

                      Jay Apperson, Chief Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

                Patricia DeMarco, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            FEBRUARY 3, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress From the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress From 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

The Honorable W. Ralph Basham, Director, United States Secret 
  Service, Department of Homeland Security
  Oral Testimony.................................................     4
  Prepared Statement.............................................     5
Admiral Thomas H. Collins, Commandant, United States Coast Guard, 
  Department of Homeland Security
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
The Honorable Michael Garcia, Assistant Secretary, Bureau of 
  Immigration and Customs Enforcement, Department of Homeland 
  Security
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Panel Questions From the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    28

                                APPENDIX
               Material Submitted for the Hearing Record

Post-Hearing Questions and Responses from the Honorable W. Ralph 
  Basham.........................................................    39
Post-Hearing Questions and Responses from Admiral Thomas H. 
  Collins........................................................    45
Post-Hearing Questions and Responses from the Honorable Michael 
  Garcia.........................................................    53

 
   LAW ENFORCEMENT EFFORTS WITHIN THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                       TUESDAY, FEBRUARY 3, 2004

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1 p.m., in Room 
2141, Rayburn House Office Building, Hon. Howard Coble (Chair 
of the Subcommittee) presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. The 
Subcommittee on Crime, Terrorism, and Homeland Security will 
come to order.
    The Subcommittee on Crime, Terrorism, and Homeland Security 
will now hold the third hearing on law enforcement efforts 
within the Department of Homeland Security. The first hearing, 
conducted on July 9, 2002, examined the transfer of several law 
enforcement agencies and offices to the new Department of 
Homeland Security.
    The second hearing, conducted on November 20, 2003, focused 
on the Department of Homeland Security efforts through the 
Office of Domestic Preparedness to train State and local law 
enforcement and other first responders to prepare for and 
respond to terrorist acts.
    This hearing examines how the transfer of law enforcement 
applies to the new department, has affected terrorism and 
nonterrorism of law enforcement missions, how these agencies 
are working with other law enforcement agencies in and outside 
of the Department of Homeland Security and whether the agencies 
need new law enforcement authorities to adequately carry out 
their responsibilities.
    The Secret Service has two missions: One, law enforcement 
investigations and, two, the protection of the President and 
Vice President of the United States, their immediate family 
members and others.
    The Coast Guard mission has four parts: To handle maritime 
law enforcement, maritime safety, marine environmental 
protection and national defense.
    The Immigration and Customs Enforcement Bureau consists of 
the investigative and enforcement functions for immigration, 
customs and air security. Responsibilities of ICE range from 
intelligence work to investigating child pornography.
    I would like to commend you and your agencies on your 
dedication and efforts to protect our Nation against terrorists 
and other types of criminals. Your agencies carry great 
responsibilities and burdens. While we are at war with 
terrorists, the country at the same time faces growing drug 
cartels, the proliferation of child pornography, financial and 
Internet scams against the elderly and other serious crimes.
    Our Nation has limited resources that must be used wisely. 
So I hope to hear today how your agencies are coordinating, 
cooperating and sharing information in these efforts.
    There have been various press articles and reports about 
turf battles between some of your agencies and other agencies 
outside of the Department of Homeland Security. If these 
articles reflect accuracy, I expect you all to work diligently 
to end these disputes. I don't think we have time for the 
luxury of turf battles. We have better things to do.
    We do not have the time to deal with this sort of problem 
when national security is at risk. I look forward to hearing 
how any disputes are being resolved and how the law enforcement 
agencies are working together to protect the American people.
    I want to thank the witnesses who were able to be here 
today and look forward to their testimony, and now I am pleased 
to recognize the distinguished gentleman from Virginia, the 
Ranking Member of this Subcommittee, Mr. Bobby Scott. And Mr. 
Scott, before I recognize you, I will say to our other Members, 
thank the gentlemen from Wisconsin and Pennsylvania--strike 
that--Ohio from being here. And your opening statements will be 
made a part of the record without objection.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I am pleased to join 
you in convening this hearing with several of our law 
enforcement agencies and the Department of Homeland Security. 
The last time we met with these agencies or their predecessor 
agencies, we were looking at them on the verge of their merger 
with DHS. I expressed my concerns about the effect of DHS 
superstructure, what effect it may have on the traditional law 
enforcement missions of these agencies as well as on preventing 
terrorism.
    Coordinating information in law enforcement operations was 
cited as a major problem in not being able to prevent 9/11. I 
was concerned that adding additional bureaucratic 
superstructure might not help, might even be counterproductive, 
and I continue to have these concerns and hope our witnesses 
will be able to address these concerns.
    Although I am relieved that we have not had another 
catastrophic terrorism event since 9/11, the issue of what 
impact DHS structure is having on preventing terrorism in our 
traditional law enforcement responsibilities is not resolved 
just by the fact that we haven't had these unfortunate 
incidents.
    I would like to know, for example, whether or not the 
traditional law enforcement responsibilities have been affected 
by the association with DHS. Of course any terrorism incident 
would ultimately be a local and first responder situation; that 
is, the local police, the fire or emergency personnel. Some are 
concerned about the impact that DHS has had on the ability of 
local law enforcement entities to maintain their traditional 
law enforcement capabilities while doing their part to enhance 
overall security.
    Localities are already hard hit by the cost of increased 
demands that have been put on them, particularly by the recent 
alert increases and by the pronouncements of the Federal 
Government, they have had to increase their vigilance. When we 
have these alerts, their demands go up and they have obviously 
substantial financial implications. I am aware that the law 
enforcement components of DHS, it is not your fault, but we 
would like to know and how you have been working with the local 
and State law enforcement agencies.
    So, Mr. Chairman, I look forward to working with you on 
this and look forward to the testimony of the witnesses.
    Mr. Coble. And I as well. I thank you, Mr. Scott.
    Today, ladies and gentlemen, we have three distinguished 
gentleman from the Department of Homeland Security. We place 
the order of witnesses testifying alphabetically. Our first 
witness is Mr. W. Ralph Basham of the United States Secret 
Service. Mr. Basham was appointed as the 21st Director of the 
U.S. Secret Service on January 27 of last year. Prior to this 
appointment he served as the Director of the Federal Law 
Enforcement Training Center and as the Chief of Staff for the 
Transportation Security Administration. Mr. Basham is a native 
of Owensboro, Kentucky, a River alumnus, right, Mr. Basham? 
Holds a Bachelor's Degree from Southeastern University in 
Washington, D.C. and has received numerous honors, including 
the 1992 and 2000 Meritorious Presidential Rank awards.
    Our next witness is Admiral Thomas H. Collins. Admiral 
Collins is the Commandant of the United States Coast Guard and 
a longtime friend and shipmate of mine. Previously he served as 
the Coast Guard's Vice Commandant. He was also the Commander of 
the Pacific area and the 11st Coast Guard District, where he 
developed a successful response to illegal drug and migrant 
smuggling operations in the eastern Pacific. With an 
undergraduate degree from the United States Coast Guard Academy 
at New London, Admiral Collins also has a Master of Arts Degree 
from Wesley University as well as a Master of Business 
Administration Degree from the University of New Haven.
    Our third witness is Mr. Michael J. Garcia. Mr. Garcia was 
appointed as Assistant Secretary for the newly formed U.S. 
Immigration and Customs Enforcement Bureau. This is the largest 
investigative arm of the Department and combines law 
enforcement and intelligence components from the former 
Immigration and Naturalization Service, the U.S. Customs 
Service, the Air Marshals and the Federal Protective Service. 
Mr. Garcia has a distinguished career as a Federal prosecutor 
and served as the Acting Commissioner on the INS during its 
transition to the new Department. He is a native New Yorker and 
graduated from the State University of New York at Binghamton, 
the tri-cities, right, Mr. Garcia? He received a Master's 
Degree in English from the College of William and Mary and 
holds a Juris Doctorate from the Albany Law School of Union 
University, where he was valedictorian.
    It is good to have each of you with us. We have your 
written statements. They have been examined and will be 
reexamined, and I ask unanimous consent to submit into the 
record their entirety.
    Now, gentlemen, as you all probably know, we try to live 
within the 5-minute rule around here. You won't be lashed with 
a whip if you violate it, but when the red light appears that 
will be your warning that your 5 minutes have expired. There 
will be an amber light to give you warning in advance.
    So, Mr. Basham, why don't we start with you, and good to 
have all of you with us.

 STATEMENT OF THE HONORABLE W. RALPH BASHAM, DIRECTOR, UNITED 
     STATES SECRET SERVICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Basham. Good afternoon, Mr. Chairman. I would like to 
thank you as well as the distinguished Ranking Member Mr. 
Scott----
    Mr. Coble. Mr. Basham, pull that mike a little closer to 
you, if you will. Thank you, sir.
    Mr. Basham. Is that better?
    --and other Members of the Subcommittee for providing the 
opportunity to discuss the law enforcement activities of the 
Secret Service and our transition to the Department of Homeland 
Security.
    The Secret Service was created in 1865 to stem the rampant 
flow of counterfeit currency in post-Civil War America. Based 
upon that historic foundation originating in the Treasury 
Department, the Secret Service has become the leading Federal 
agency for safeguarding our Nation's financial infrastructure.
    Because the Secret Service has maintained its dual missions 
of investigations and protection for more than a century, these 
missions have become fully interdependent and completely 
integrated through an international network of field offices.
    Today the Secret Service's statutory responsibilities reach 
far beyond counterfeiting and protection. Our criminal 
investigation jurisdiction includes cyber crime, credit and 
debit card fraud, telecommunications fraud, identity theft, 
false identification fraud, bank fraud and other financial 
crimes.
    The Secret Service protects our Nation's highest elected 
leaders, including their families and residences, as well as 
visiting foreign heads of State and foreign missions. We also 
coordinate security operations at major national events such as 
the 2002 Winter Olympics and this year's national political 
conventions and the G-8 economic summit in Sea Island, Georgia.
    Just over 1 year ago, Mr. Chairman, the Secret Service 
testified before this very Subcommittee in full support of the 
Administration's proposal to transfer our entire agency, its 
resources and mission, to the new Department of Homeland 
Security.
    Today I am enormously proud of the contributions of the 
over 6,100 men and women of the Secret Service and the 
contributions they have made toward the mission of homeland 
security. Our special agents, uniform division officers, 
technical and professional staff have endeavored each and every 
day to protect our elected leaders and critical and financial 
infrastructures and make a safer America.
    But there are two in particular that I would like to 
highlight for this Subcommittee. First, the historic emphasis 
on prevention that the Secret Service most prominently brings 
to DHS. For 139 years prevention has been the bedrock principle 
of both our investigative and protective missions of the Secret 
Service. This is the agency's culture and its creed. The Secret 
Service is fully integrated with the many components of DHS, 
and we continue to share our preventative expertise with these 
entities, from the infrastructure protection, to information 
analysis, to emergency preparedness and response.
    Secondly, our agency shares another unique strength with 
the Department; namely, our experience in building partnerships 
and sharing information with our counterparts and other law 
enforcement agencies, State and local governments and the 
private sector. Such communication and cooperation is essential 
to a successful homeland security program, and I am convinced 
that the blueprint we have developed over the course of decades 
of experience is a success story that has been embraced by the 
Department.
    Finally, Mr. Chairman, I would like to report to this 
Subcommittee the status of our electronic crimes task force 
initiative, of which this Subcommittee has strongly supported 
in the recent years. As you know, the USA PATRIOT Act 
authorized the Secret Service to expand our task force model in 
New York to cities and regions across the country. These task 
forces have revolutionized the Government's response to cyber 
vulnerabilities and computer crime and serve as models for how 
law enforcement must cooperate and operate in the information 
age. They remit the cutting edge of our efforts to partner with 
Federal, State and local police, prosecutors, private industry 
and academia to safeguard our critical and financial 
infrastructures and protect American consumers and industry 
alike.
    In 2002, the Secret Service launched electronic crime task 
forces in Chicago, Los Angeles, San Francisco, Charlotte, 
Boston, Las Vegas, Miami and Washington, D.C. Last year we 
established task forces in Cleveland, Houston, Dallas and 
Columbia, South Carolina, and additional task forces are 
currently on the drawing boards.
    Mr. Chairman, on behalf of the men and women of the Secret 
Service, we stand ready to continue our mission of protecting 
our leaders, our financial and critical infrastructure, and the 
American people. This concludes my prepared statement, and I 
would be very pleased to answer any questions you may have.
    [The prepared statement of Mr. Basham follows:]

                 Prepared Statement of W. Ralph Basham

    Good afternoon, Mr. Chairman. I would like to thank you, as well as 
the distinguished Ranking Member, Mr. Scott, and the other members of 
the subcommittee for providing an opportunity to discuss the law 
enforcement activities of the Secret Service, and our role in the 
Department of Homeland Security.
    The Secret Service was created in 1865 to stem the rampant flow of 
counterfeit currency in post-Civil War America. Since that time, the 
Secret Service has been the preeminent federal agency for safeguarding 
our financial infrastructure.
    In 1901, we were assigned our historic mission to protect the 
President. And while for more than a century the Secret Service has 
maintained its dual missions of investigations and protection, those 
missions have become fully interdependent and completely inseparable.
    Today, the Secret Service's responsibilities reach far beyond 
counterfeiting and Presidential protection. Our criminal jurisdiction 
includes access device (credit and debit card) fraud, cyber crime, 
identity theft, false identification fraud, bank fraud, 
telecommunications fraud, and other financial crimes.
    The Secret Service protects our nation's highest elected leaders, 
including their families and residences, as well as visiting foreign 
leaders and foreign missions. We also coordinate security operations at 
National Special Security Events, which this year will include the two 
national political conventions and the G-8 Summit in Sea Island, 
Georgia.
    Just over one year ago, the Secret Service testified before this 
subcommittee in full support of the Administration's proposal to 
transfer our agency to the new Department of Homeland Security. We did 
so because of our strong conviction that the protective and 
investigative missions of the Secret Service were central to the 
mission of homeland security. We saw an opportunity for our personnel, 
with their unique experience and expertise, to make a vital and 
meaningful contribution to our common goal of protecting this nation.
    One year later, I am enormously proud of the contributions that the 
6,100 men and women of the Secret Service have made to the mission of 
homeland security. Our special agents, Uniformed Division officers, 
technical and professional staff have endeavored each and every day to 
protect our elected leaders and critical and financial infrastructures, 
and make a safer America.
    Our efforts to support the new Department have been many. But there 
are two in particular that I would like to highlight for the 
subcommittee.
    First is our historic emphasis on prevention that we have brought 
with us to DHS. For 138 years, prevention has been the bedrock 
principle of the Secret Service. It began with our efforts to stem the 
flow of counterfeit currency--to attack the problem when it was in 
production, not distribution.
    It was continued with our protective mission, where we utilize 
threat assessments, intelligence and meticulous advance work to provide 
a safe and secure environment for our protectees. Prevention is also 
the central theme today of our groundbreaking efforts to shield our 
critical and financial infrastructures from intrusion and compromise.
    From day one, Secretary Ridge and DHS have recognized the 
importance of prevention. Indeed, virtually all aspects of the 
Department are committed to preventing further terrorist attacks on 
American soil.
    The Secret Service is fully integrated with the many components of 
DHS, and we continue to share our preventative expertise with these 
entities, from infrastructure protection and information analysis, to 
emergency preparedness and others.
    Secondly, our agency brings another unique strength to the 
Department; namely, our experience with building partnerships and 
sharing information with our counterparts in other law enforcement 
agencies and the private sector.
    Throughout our 150 field offices across the country and around the 
globe, our field personnel have developed productive and trusted 
partnerships with local police, prosecutors, academia and industry 
representatives in their communities.
    These partnerships are vital to the success of both our protective 
and investigative missions. We recognize that without cooperation and 
support from our local law enforcement partners, we could not have a 
successful visit to a given community by one of our protectees. We also 
could not successfully prevent and detect electronic crimes and cyber 
attacks without the assistance, resources and expertise of our partners 
in law enforcement and the private sector.
    Such communication and cooperation is imperative to homeland 
security, and I am convinced that the blueprint we have developed over 
the course of many decades of experience is a success story that will 
further strengthen and contribute to the success of the Department.
    Finally, Mr. Chairman, I would like to report to the subcommittee 
the status of our Electronic Crime Task Force initiative. As you will 
recall, the USA/PATRIOT Act of 2001 included language, thanks to the 
support of this committee and others, authorizing the Secret Service to 
expand our highly successful New York Electronic Crime Task Force to 
other cities and regions across the country.
    These task forces have revolutionalized the government's response 
to computer crime, and serve as models for how law enforcement must 
operate in the Information Age.
    The composition and efforts of these task forces are tailored to 
the needs of their individual communities. They represent the cutting 
edge of our efforts to partner with federal, state and local police 
departments, prosecutors at all levels, private industry and academia 
to safeguard our critical and financial infrastructures, and protect 
American consumers and industry alike. Their training and investigative 
techniques are innovative and unprecedented. Most importantly, these 
task forces are making a meaningful difference in the communities they 
serve.
    Last year, the Secret Service launched electronic crime task forces 
in Chicago, Los Angeles, San Francisco, Charlotte, Boston, Las Vegas, 
Miami and Washington, D.C. Just last month, we announced new task 
forces in Cleveland, Houston, Dallas and Columbia, South Carolina. 
Additional task forces are on the drawing boards.
    Mr. Chairman, on behalf of the men and women of the Secret Service, 
we stand ready to continue our mission of protecting our leaders, our 
financial and critical infrastructures, and the American people. Thank 
you again for the opportunity to appear before the subcommittee.
    This concludes my prepared statement. I will be pleased to answer 
any questions you or the other members of the subcommittee may have.

    Mr. Coble. Thank you, Mr. Basham. I failed to mention this 
in my opening statement, but I am well familiar with your 
agency. I have known many Secret Service agents personally, and 
you all do--as we say in this rural south, you done good, and 
you continue to do that I am sure.
    Mr. Basham. Thank you, Mr. Chairman.
    Mr. Coble. To follow our alphabetical scenario, Admiral, 
good to have you with us.

  STATEMENT OF ADMIRAL THOMAS H. COLLINS, COMMANDANT, UNITED 
      STATES COAST GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Collins. Thank you, Mr. Chairman, distinguished 
Members of the Committee. It is great to be with you to talk 
about the Coast Guard's law enforcement role and how that has 
been integrated into the Department of Homeland Security. I am 
also very delighted to be here with Ralph Basham and Mike 
Garcia, who are our close partners over the last year and 
prior.
    You know, when most people think of the United States Coast 
Guard they have the image of people that are jumping around in 
helicopters and saving people. That is a wonderful image. It is 
accurate but incomplete. We are also a very robust law 
enforcement agency established in 1790 by the First Congress of 
the United States for that very purpose, law enforcement, and 
over time we have grown into a military, multi-mission maritime 
organization that we are today. And as we transition to the new 
Department of Homeland Security, I assure you that we have 
preserved our fundamental character, enhanced our law 
enforcement objectives and role and sustained mission 
performance across all our missions.
    The Coast Guard provides the Department of Homeland 
Security extensive regulatory and law enforcement authorities 
in the maritime, governing ships, boats, personnel and 
associated activities in our ports, in our waterways, in 
offshore maritime regions. Our entire mission profile we think 
aligns extremely well within the Department of Homeland 
Security. In all our mission areas we remain focused on 
performance-based results. Our budget and brief documents for 
2004 document some of these performances.
    For example, in fiscal year 2003, the Coast Guard seized 68 
metric tons of cocaine at sea, valued at nearly $4.4 billion, 
the second highest seizure total ever.
    The Coast Guard also noticed a significant reduction in 
foreign fishing vessel incursions of the U.S. Exclusive 
Economic Zone. From 2002 to 2003, incursions on the MBL, the 
Maritime Boundary Line, of the Bering Sea, dropped from 22 to 6 
due to the increased presence of the United States Coast Guard 
in partnership with the Russian Federal Security Service.
    In our homeland security defense role, the Maritime 
Transportation Security Act of 2002 has brought many new 
requirements and initiatives that enable a more coherent 
maritime security strategy. The requirement for port, vessel 
and facility security plans provides increased vigilance 
through additional security forces and sensors.
    Transportation security cards and the vetting of crew and 
passenger lists through intel and law enforcement databases in 
partnership with our DHS partners has improved the process of 
allocating law enforcement resources to the highest threats.
    Our maritime safety and security teams provide critical 
port security deterrents and response posture. Six teams are in 
place, and seven more will be in place by the end of fiscal 
year 2004. And these new units offer a rapid, deployable 
security force able to deliver vertically that support to our 
interagency partners and ships at sea.
    We have implemented heightened security measures and 
expanded law enforcement programs and capabilities, including 
security and control boarding capabilities at sea, a canine 
program, shoreside law enforcement authority in partnership 
with the U.S. Marshals, underwater port security capability, a 
vertical insertion and vertical delivery of our boarding teams 
from helicopters, the expansion of airborne use of force 
capability, and so forth.
    The Coast Guard is also capitalizing on the synergies 
available through revitalized organization relationships within 
the Department of Homeland Security. For example, I have just 
ordered the relocation of our maritime law enforcement and 
boarding team member schools to the Federal Law Enforcement 
Center in Charleston, South Carolina, the premier supplier of 
law enforcement training for more than 75 agencies; and in 
addition, we have developed very strong cooperative security 
partnerships with the Secret Service.
    Common mission focus and an emphasis on integrated 
operations is a key goal within the Department of Homeland 
Security. Just last week four Coast Guard cutters operating in 
the Caribbean seized more than 11,500 pounds of drugs and 
caused approximately 3,000 pounds more to be dumped at sea. 
That work was done in cooperation with immigration and customs 
enforcement and the United States Navy. We thwarted five 
separate smuggling attempts and took 18 suspected smugglers 
into custody. The successful integration of Assistant Secretary 
Garcia's operations with mine epitomizes the power available to 
us by our collocation within the Department of Homeland 
Security.
    I don't want to suggest for a moment that successful 
homeland security and nonhomeland security mission execution is 
not without challenges for the United States Coast Guard. We 
are working our assets and our crews harder than ever, but the 
initiatives included in the President's 2005 budget request 
will continue to strengthen our collective homeland security 
readiness. I ask you and other Members of Congress to support 
the President's request for the capacity and capability 
improvements for the Coast Guard.
    Deepwater, our plan for major asset recapitalization, has 
never been more relevant, and the implementation of the 
Maritime Transportation Security Act regulations is critical to 
our Nation's maritime security.
    Thank you for the opportunity to testify here today, and I 
look forward to any questions you may have.
    [The prepared statement of Admiral Collins follows:]
            Prepared Statement of Admiral Thomas H. Collins

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Admiral. I note that we have been 
joined by the distinguished gentleman from Florida; Mr. Feeney 
has joined us. Good to have you with us, Tom.
    Now, since I bragged on the Secret Service I am going to 
have to say equally good things about the country's oldest 
continuing seagoing service, the Coast Guard. You know how high 
I am on you all, Tom. And Mr. Garcia, I have not known that 
many people in Immigration and Customs, but I am sure you all 
do equally well, so I don't want to short anybody. Good to have 
you with us, Mr. Secretary.

STATEMENT OF THE HONORABLE MICHAEL GARCIA, ASSISTANT SECRETARY, 
 BUREAU OF IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Garcia. Thank you, Mr. Chairman, Congressman Scott, and 
distinguished Members of the Committee. It is a privilege to 
speak before your Committee today about the development and 
mission of U.S. Immigration and Customs Enforcement. In March 
of 2003, when the Department first stood up, a new Federal 
investigative agency was also formed, U.S. Immigration and 
Customs Enforcement, or ICE, as it is better known. As the 
largest investigative arm of Homeland Security, ICE's primary 
mission is to detect vulnerabilities and prevent violations 
that threaten national security. In other words, ICE 
investigates homeland security crimes, in particular crimes 
related to border security, air security and economic security.
    ICE pursues this new homeland security mission by building 
upon the traditional missions, resources, authorities and 
expertise of the legacy agencies it inherited. The 
investigative and intelligence resources of the former U.S. 
Customs Service, Immigration and Naturalization Service, 
Federal Protective Service, and now Federal Air Marshals 
Service, have been fused together to allow us to go after the 
criminal enterprises in new ways.
    ICE is bringing new approaches to traditional areas of law 
enforcement and creating enforcement programs in response to 
its new homeland security mission.
    Today I will speak about ICE's incorporation of Customs' 
enforcement tools and authorities. In this new agency, the 
unique resources that ICE components bring to investigations 
enhance our overall ability to pursue traditional missions. For 
example, the financial expertise of the former Customs Service 
is brought to bear on immigration crimes, allowing us to follow 
the money trail in a way that the former INS never could. 
Similarly, the former Customs Service could track weapons and 
drug smuggling operations, but it could not pursue 
investigations into human smuggling rings. The limitations 
significantly hampered the Custom Service's ability to combat 
organized smuggling organizations.
    As you know, Mr. Chairman, the lines between the various 
forms of organized smuggling have all but disappeared. 
Increasingly sophisticated in their operations, smugglers are 
moving contraband across our borders that includes everything 
from drugs, money and weapons to counterfeit merchandise, 
fraudulent documents and even human beings. Smugglers don't 
care what they smuggle. They care only about the profit margin 
of their illicit cargoes. They switch between these cargoes 
driven only by that bottom line, often carrying loads of drugs, 
people, money and other contraband at the same time.
    Homeland security requires the same kind of flexibility in 
our approach to this organized criminal enterprise. At ICE we 
now have it. That is why we don't segregate our smuggling 
operations into artificial and impractical components. Instead 
we go wherever the money trail leads us.
    Operation ICE Storm, which targets smuggling organizations 
along the southwest border, is the best example of ICE's new 
integrated approach to fighting smuggling crimes. The results 
of this new approach have been remarkable. ICE Storm has 
produced more than 700 arrests, 90 indictments, nearly $2 
million in seizures and 46 assault weapons taken off the 
streets.
    Let me put this in a different context. A couple of weeks 
ago during a news conference the Phoenix police chief stated 
that the murder rate in Phoenix has dropped some 30 percent in 
the last quarter over the prior year, and he touted ICE Storm 
and the cooperation between Federal and local enforcement as 
being largely responsible for this drop in violent crime.
    The traditional offense of smuggling is a heinous crime in 
its own right, but it also highlights potential vulnerabilities 
in our border security. If organized crime rings can lead 
illegal aliens into the country, terrorists could potentially 
use the same methods to infiltrate our borders. If narco 
traffickers can smuggle cocaine into the country, terrorists 
could potentially use the same routes and methods to smuggle 
components for weapons of mass destruction.
    This same approach underlies our counternarcotics mission. 
One recent ICE case highlights that fact with stunning clarity. 
More than 20 people were charged with narcotic smuggling in a 
ring that operated out of JFK International Airport in New 
York. A number of those arrested had badges allowing them 
access to secure areas of the airport facility.
    While that case centered on narcotic smuggling, such an 
organization could, again driven by profit, arrange for weapons 
of mass destruction or the lethal commodities to enter the 
United States.
    ICE applies a similar proactive strategy to all its 
operations. For example, we have launched Cornerstone, a 
financial investigations program aimed at closing 
vulnerabilities in the Nation's economic security in the same 
way that ICE Storm is focusing on closing vulnerabilities in 
our border security. Today's criminal enterprises and terrorist 
networks are highly adept at exploiting traditional financial 
and commercial infrastructures to earn, launder and store the 
money they need to fund their operations.
    As a recent GAO study points out, criminal and terrorist 
organizations earn their money through a wide variety of 
criminal enterprises. All of these criminal activities are 
targets of ICE investigations under Cornerstone. Each of these 
activities was in its own way a mission of one of ICE's legacy 
components. Taken together, these traditional missions merge 
into something much more powerful. They fuse into our ultimate 
mission, which is to protect the homeland.
    In Newark recently, ICE closed down unlicensed money 
brokers sending millions of dollars to Pakistan. More recently, 
in Massachusetts, ICE charged a major gold refining company 
with commodities-based money laundering. In these cases there 
was no link to terrorists, but the vulnerabilities are clear.
    Just last week, ICE announced the largest case ever 
involving the smuggling of counterfeit cigarettes into the 
United States. The probe resulted in a 92-count Federal 
indictment against 19 defendants. The potential profits 
resulting from such a scheme are enormous.
    Results to date shows that Cornerstone is moving in the 
right direction. Since March 1, 2003, ICE financial 
investigations have yielded 1,200 arrests and bulk cash 
seizures of $75 million.
    In summing up, I would just like to point out another areas 
where ICE is taking the lead: the export of U.S. weapons 
component and technology. Over the last year, ICE has roughly 
doubled the number of export enforcement cases that we have 
brought, and we expect further increases.
    And finally, the fight against child pornography is also a 
critical focus of ICE. As you know, we have launched an 
unprecedented initiative against child sex predators worldwide 
called Operation Predator. This campaign, which fuses all the 
authorities and resources of ICE, has resulted in the arrest of 
roughly 1,800 individuals since last July. A key component of 
this initiative targets Internet child pornography, and last 
month ICE announced the arrest of more than 40 people 
nationwide in connection with a global Internet child 
pornography case.
    Mr. Chairman, I have focused on just a few examples of how 
the ICE mission at DHS works hand-in-glove with the traditional 
missions of our legacy agencies. I could speak of literally 
dozens of other examples. However, I know that I am already 
over my time, but I look forward to answering any questions 
that you might have.
    [The prepared statement of Mr. Garcia follows:]

                  Prepared Statement of Michael Garcia

    Good morning, Mr. Chairman, Congressman Scott, and distinguished 
Members of the Committee. It is a privilege to be here today to discuss 
the steps the Bureau of Immigration and Customs Enforcement (BICE) has 
taken to meet the considerable responsibilities that come with being 
the largest investigative arm of the Department of Homeland Security. 
BICE is comprised of some of our Nation's oldest and most recognizable 
law enforcement agencies and their combined responsibilities place BICE 
directly on the front line of protecting our homeland. We recognize and 
accept this responsibility and remain committed to fulfilling our 
combined missions.
    While BICE is a new agency, we are committed to enforcing and 
enhancing the traditional law enforcement mandates of our legacy 
agencies. When creating BICE, our mission was to create a unified law 
enforcement agency capable of bringing all its law enforcement tools to 
bear, in an efficient and effective manner, on the vulnerabilities to 
our homeland security. The mission of homeland security is to address 
vulnerabilities--vulnerabilities that open our borders to infiltration 
and our financial systems to exploitation; and vulnerabilities that 
weaken our national security and expose our citizens to attack. The 
mission of BICE is to implement proactive initiatives aimed at closing 
vulnerabilities and strengthening national security. The merger of the 
combined jurisdiction, broad legal authorities, and investigative 
expertise of the former agencies has enhanced and expanded the 
investigative activities of BICE. These authorities include the 
investigation of a wide range of crimes, including violations of 
immigration laws, money laundering, migrant and contraband smuggling, 
trade fraud, import and export violations, including those linked to 
Weapons of Mass Destruction, and cyber crimes, including Internet child 
pornography.
    On March 1, 2003, an impressive array of resources were brought 
together to create what would become known as BICE. Our charge was to 
continue the critical mission of each of the organizations comprising 
BICE, while integrating and ultimately enhancing the operations within 
our new Bureau. BICE brought together the investigative and 
intelligence functions of the Immigration and Naturalization Service 
(INS) and the U.S. Customs Service (USCS), the Detention and Removal 
function of the INS, the Air and Marine Operations of USCS, the Federal 
Protective Service (FPS), and Federal Air Marshals (FAMS) from the 
Transportation and Security Administration (TSA).
    This merger brings together thousands of dedicated law enforcement 
professionals, including 5,500 Special Agents; 4,000 Detention and 
Removal employees; 1,500 Federal Protective Service employees; and 
Federal Air Marshals. BICE is now the largest Federal law enforcement 
bureau and a key investigative arm of the Department of Homeland 
Security. Our primary focus has been to integrate all of these 
resources in a manner that would allow us to further enhance the 
investigative efforts aimed at protecting our homeland without 
interruption of the longstanding enforcement duties of our former 
agencies. We are accomplishing these goals and meeting the new 
challenges of the 21st century at the frontline as we continue to 
develop as a premier law enforcement bureau.
    In June 2003, BICE created a unified field structure for 
Investigations by creating 25 BICE field offices within a strengthened 
chain of command; placed the Federal Protective Service, Detention and 
Removal Operations, the Air and Marine Operations, and the Federal Air 
Marshals at Division status to reflect their unique capabilities, and 
created a unified Intelligence Division. We will continue to bring to 
bear all the specialized skills and knowledge of our personnel and 
continue to create unified programs for training, firearms and 
investigative support.
    The BICE Investigations Division has continued to execute the 
enforcement mandates of both the immigration and customs statutes. By 
combining our capabilities and expertise, BICE has realized significant 
synergies and been able to leverage resources to meet the inherited 
challenges and find new methods to overcome new challenges.
    BICE's newly created alien smuggling unit is an excellent example 
of how resources that were once spread over several agencies have been 
integrated into one unit. This integration enhances BICE's ability to 
uncover and shut down vulnerabilities in our national security. Set up 
to identify and dismantle criminal enterprises that prey on persons who 
enter the country illegally, this unit works closely with all of our 
operational components to leverage our expertise and unique 
authorities. The combination of these investigative efforts enables 
BICE to comprehensively explore all aspects of the violation.
    Last year, BICE launched Operation ICE Storm, an unprecedented 
multi-agency initiative to combat human smuggling and the violence it 
has generated in Arizona and nationwide. In support of the operation, 
BICE deployed 50 additional Special Agents to the Phoenix area. These 
resources enhance BICE's investigational capabilities and its ability 
to respond to local law enforcement. ICE Storm was developed to attack 
the smuggling-related violence that has grown in the Phoenix area at an 
alarming rate. Court statistics show that, from January through October 
2003, Phoenix experienced a 45 percent increase in homicides when 
compared to the same period during the previous year. Over the last few 
years, there have also been a significant number of incidents involving 
extortion, kidnapping, and home invasions. In 2002-2003, there were 623 
such incidents, 75 percent of which were the result of human smuggling 
or related activity.
    The BICE led task force uses its broad range of authorities and 
resources to dismantle organized crime outfits that have turned human 
smuggling into a bloody but profitable venture. For example, a critical 
facet of ICE Storm involves targeting the monetary assets of smuggling 
organizations. Following the money trail and crippling the 
organizations' financial infrastructure is crucial to disabling the 
smugglers' operations. A financial analysis by BICE showed that during 
a six-month period in early 2003 more than $160 million were funneled 
into Phoenix through money transmitting businesses.
    As a result of these efforts, ICE Storm has resulted in over 700 
arrests, 90 indictments, nearly $2 million in seizures and 46 assault 
weapons taken off the streets in the first 180 days of the initiative.
    Another investigative effort that brought to bear BICE's combined 
authorities and expertise was demonstrated in a case in Victoria, 
Texas, where 19 migrants died while attempting to enter the U.S. 
illegally concealed inside a locked tractor-trailer which was then 
abandoned by smugglers. By drawing on the array of assets now 
available, BICE investigators were able to quickly identify and locate 
the smugglers responsible and follow the money trail to the ringleader, 
who had fled the United States. The investigation resulted in 19 
indictments, the extradition of the ringleader, who with her co-
conspirators, are awaiting trial. In addition, an undercover operation 
conducted in conjunction with this investigation resulted in the rescue 
of a 3-year-old boy from the same band of smugglers. His captors were 
subsequently apprehended and arrested. These types of criminals are 
exploiting vulnerabilities in our border security for financial gain; 
however, their human cargo could just have easily been a group of 
terrorists. For these reasons, BICE has made alien smuggling 
investigations one of our top priorities.
    In addition to investigating alien smuggling organizations, BICE is 
dedicated to the continued investigation of smuggling organizations 
that transport illegal narcotics that pose a significant threat to our 
nation's border security and the well being of our citizens. BICE is a 
major contributor to the disruption and dismantling of major narcotic 
organizations. In fiscal year 2003, BICE agents arrested over 12,000 
individuals on narcotics related charges. If organized crime rings can 
lead illegal aliens into the country, terrorists can use the same 
methods to infiltrate our borders. If narco-traffickers can smuggle 
cocaine into the country, terrorists can surreptitiously bring in 
components for weapons of mass destruction.
    Currently, there are approximately 400,000 absconders in the United 
States. Absconders are individuals who have violated U.S. immigration 
laws, were ordered to deported, and fled before they could be deported 
from the United States. BICE is committed to the complete removal of 
all criminal absconders and has prioritized by identifying the ``Most 
Wanted'' criminal offenders. Two months after BICE publicly released 
the list of the ``Top Ten Most Wanted'', nine of them were apprehended 
and the tenth was confirmed out of the country. In prioritizing the 
worst offenders, we noticed that a number of them were sexual 
predators, many of whom had records of preying on children. As a 
result, on July 9, 2003, BICE launched Operation Predator, an 
initiative aimed at bringing to bear all of our powers and authorities 
that could be used to protect our children--America's future and the 
essence of our homeland. Since it's inception, BICE has arrested more 
than 1,835 predators and have deported or initiated deportation 
proceedings against those who are foreign born nationals. BICE will 
continue to remain committed to protecting our children through the 
relentless enforcement of Operation Predator.
    In July 2003, BICE announced ``Cornerstone'', a BICE Financial 
Investigations Division program designed to identify vulnerabilities in 
our Nation's financial systems through which criminals launder their 
illicit proceeds. Cornerstone is focused on identifying systems that 
are being exploited by criminal or terrorist groups. Through this 
proactive approach, BICE systematically and strategically examines 
financial systems that may be susceptible to exploitation. BICE 
identifies criminal organizations that are exploiting these financial 
systems. BICE employs a methodology of attacking the exploitation, 
disseminating findings through liaisons to the financial and trade 
sectors, and working toward enhancing money laundering laws and 
regulations. Cornerstone enables BICE to focus its unique competencies 
and authorities on stopping this exploitation through intelligence 
gathering, implementing ``fixes'' where necessary to protect the 
integrity of our financial systems, and referring investigations for 
prosecution.
    Since March 1, 2003, BICE financial investigations have yielded 
1,213 arrests and bulk cash seizures of more than $75 million. Since 
it's inception in 1992, Agents of BICE's El Dorado Task Force in New 
York City have arrested more than 1,800 individuals and seized nearly 
$560 million in criminal proceeds. These existing financial 
investigations, which have been merged with Cornerstone, will aid the 
financial industry to eliminate the industry-wide security gaps that 
could be exploited by criminal organizations. As Secretary Ridge 
stressed in his announcement of Cornerstone, ``Money is the lifeblood 
of terrorist networks.'' Through Cornerstone, BICE continues to 
safeguard the integrity of America's financial systems as part of our 
dedication to homeland security.
    BICE's Arms and Strategic Technology Investigations Program 
enforces import and export control laws and prevents terrorist groups 
and hostile nations from illegally obtaining U.S.-origin military 
products and sensitive dual use technology. On March 7, 2003, BICE 
Special Agents arrived in the Iraqi Theater of Operations (ITO) to 
support the U.S. Central Command (CentCom) in Operation Iraqi Freedom. 
A total of 15 Special Agents were initially deployed to assist CentCom 
in identifying U.S. persons or entities that may have aided or assisted 
Iraq in the development of its weapons programs, or in the acquisition 
of defenses articles, or controlled dual use technology or products, or 
engaged in prohibited financial transactions with Iraq.
    To this day, BICE continues to maintain teams of Special Agents in 
the ITO. The first U.S. charges to result from leads generated by the 
BICE teams in Iraq occurred on October 15, 2003, when a federal grand 
jury in the District of Columbia indicted two individuals on charges of 
brokering the manufacture and export of six armored patrol vessels, 
valued at a total of $11 million, to the Iraqi military. At least three 
of the military vessels were completed in Iraq before the war and had 
been deployed by Iraqi military forces. Both individuals were arrested 
by BICE special agents, subsequently indicted, and are awaiting trial 
in the United States.
    In July 2003, BICE Special Agents executed 18 Federal search 
warrants throughout the United States to disrupt an Iranian smuggling 
network that was illegally procuring parts and components for military 
fighter aircraft and missile systems through a company called MULTICORE 
located in London, England. Additionally, in August 2003, BICE and FBI 
agents in New Jersey arrested a British national named Hemant LAKHANI 
and two other individuals for attempting to smuggle a Russian-made Man 
Portable Air Defense System (MANPADS) into the United States. In 
addition, LEKHANI was also attempting to sell 50 additional MANPADS to 
undercover personnel.
    America's welcome is also being exploited by human rights violators 
who enter the United States in an attempt to avoid being brought to 
justice for their heinous crimes. Their mere presence here undermines 
the values and ideals that are the foundation of this Nation. BICE is 
committed to preventing this country from becoming a safe haven for 
foreign criminals and we have backed that commitment by creating the 
Human Rights Violators Unit. This specialized unit is dedicated to 
identifying and investigating human rights violators and assisting in 
their removal from the United States.
    In September 2003, BICE agents in Miami, Florida, arrested Frantz 
Douby, a former Haitian military official who had been convicted in 
absentia for his involvement in the 1994 Raboteau massacre where dozens 
of villagers were beaten and shot to death. Three other former Haitian 
military officers linked to the massacre have already been deported.
    BICE has created several additional programs to address 
vulnerabilities that threaten our national security. For example, BICE 
established a Compliance Enforcement Unit to ensure that individuals 
comply with the requirements of the Student and Exchange Visitor 
Information System (SEVIS), and the United States Visitor and Immigrant 
Status Indicator Technology (US VISIT) program. SEVIS is an Internet-
based system that maintains critical, up-to-date information about 
foreign students and exchange visitors, as well as their dependents, 
which can be accessed electronically. SEVIS enables the government to 
track students in the United States more accurately and expeditiously. 
US VISIT is a program designed to collect, maintain, and share 
information, including biometric identifiers, through a dynamic system, 
on foreign nationals to determine, among other things, whether 
individuals (a) have overstayed or otherwise violated the terms of 
their admission, (b) should be denied admission into the United States, 
(c) should be allowed to change, extend, or adjust their immigration 
status or (d) should be apprehended or detained for law enforcement 
action.
    The vast majority of students come to the United States to take 
advantage of the outstanding educational and training opportunities our 
Nation has to offer. Unfortunately, this system can be exploited by 
those who seek to do us harm, as we witnessed in the 1993 World Trade 
Center bombing and then subsequently on September 11, 2001. We must 
shut down these vulnerabilities and the Compliance Enforcement Unit is 
making great strides through the use of SEVIS, and US VISIT by 
identifying those individuals who may pose national security risks.
    The merging of 22 agencies and bureaus into the Department of 
Homeland Security provides new access to law enforcement databases that 
will now be used by the BICE Law Enforcement Support Center (LESC) to 
greatly broaden its enforcement capabilities. For example, the LESC now 
has access to intelligence information from the former INS, Customs, 
and the Federal Protective Services databases. This will improve our 
ability to provide timely information to state and local law 
enforcement agencies around the nation, as well as to international 
enforcement agencies.
    Coordination between Federal and local law enforcement around the 
country has expanded significantly since September 11. As additional 
resources become available, the LESC will become even more critical to 
law enforcement and national security investigations. In fiscal year 
2003, the LESC responded to nearly 600,000 investigative inquiries from 
federal, state, county and local police agencies in all 50 states. This 
surpasses the total inquiries handled in 2002 by more than 175,000.
    The operational area that has perhaps benefited the most from our 
restructuring is Detention and Removal Operations. It is now a separate 
division, bringing a sharper focus to its unique mission, which 
includes the National Fugitive Operations Program. This program is 
designed to locate, apprehend, and remove alien absconders. Our 
Detention and Removal Program is continuing its efforts in promoting 
public safety and national security by ensuring the departure of those 
aliens. Officers assigned to Detention and Removal continue to work 
toward the location, apprehension, and removal of all criminal aliens, 
absconders of the immigration process, and all other aliens ordered 
removed from the country.
    The BICE Intelligence Division provides a centralized robust 
intelligence capability to support all of BICE's operational programs 
as well as other Department components and federal partners. This 
enhanced intelligence capability has proven critical in the success of 
BICE investigations and initiatives including ICE Storm, the Victoria, 
Texas smuggling case, and Operation Predator.
    Air and Marine Operations continue to protect the Nation's borders 
from smuggling and acts of terrorism with an integrated and coordinated 
Air and Marine interdiction force. Airspace security is still being 
provided in the National Capital Region and coordination of real time 
information exchange is at an all time high.
    The Federal Protective Service (FPS) is relentlessly securing and 
identifying potential vulnerabilities of more than 8,800 federal 
buildings nationwide. As the FPS continues to protect federal 
buildings, it has integrated its operations with BICE intelligence and 
investigations in regards to attempted penetration of federal buildings 
and assisted Detention and Removal Operations in moving detainees at 
federal facilities.
    As mentioned earlier, the inclusion of the FAMS and the Explosive 
Unit and their mission to promote confidence in our Nation's civil 
aviation system through the deterrence, detection, and defeat of 
hostile acts targeting U.S. air carriers, airports, passengers, and 
crew has served to further mobilize the people and resources of the 
Department of Homeland Security. FAMS operates as a distinct unit 
within BICE, enhanced by BICE intelligence and operations data. Moving 
the FAMS to BICE provides an increased surge capacity during periods of 
increased threat to the air transportation system; improves the 
Department's ability to investigate events of interest in the airport 
environment through better connectivity between FAMS and the federal 
law enforcement community; and, provides FAMS with broader training and 
career opportunities.
    As we have shown, criminal activities are best attacked by multiple 
investigations that are interconnected--tracing all the criminal 
components of the violations and not just a single act. The additional 
jurisdiction and resources that the combined agencies bring to BICE 
have enhanced our abilities to investigate national security threats 
and strengthen the Department of Homeland Security. BICE would not have 
been able to maintain the continuity of these multiple operations, much 
less enhance the way in which they are carried out, if it were not for 
the extraordinary sense of purpose, dedication, and steadfast 
determination of the men and women who work for the agency. They fully 
understand that their day-to-day work is critical to the security of 
this Nation and its economy.
    In conclusion, I would again like to commend Congress on its 
efforts in pursuing the safety and well being of the American people 
and thank you for the opportunity to testify before you today. There is 
no higher duty of the Government than to defend its Nation. It is an 
honor to serve with the Bureau of Immigration and Customs Enforcement. 
It is a team of elite and dedicated law-enforcement officers who face 
the ultimate challenge of protecting and serving our Nation during a 
time of monumental change. I am confident that with the leadership of 
the President, guidance from Congress, and the continued cooperation 
and coordination within the Law Enforcement Community, we will continue 
to evolve as a premier law enforcement agency within the Department of 
Homeland Security. The American people deserve nothing less.
    It would be my pleasure to answer any questions you may have.

    Mr. Coble. I thank you, gentlemen. We live within the 5-
minute rule as well, so if you can, keep your questions rather 
briefly.
    Secretary Garcia, when I was first elected to the Congress, 
my bread and butter issues back home were tobacco, textiles and 
furniture. All three are now beleaguered. I am a proponent of 
enforcing trade policies that assure that legal U.S. companies 
employing U.S. citizens are not doomed by the violations of 
these agreements. I also recognize the new role of Customs to 
defend our ports from terrorist attacks and to prevent supplies 
and goods or cargo from reaching terrorists and other parts of 
our country.
    How have these responsibilities impacted your agency's 
ability to successfully enforce our Nation's trade laws, and 
are there any changes to the laws and/or regulations that could 
be enacted that would make your job more efficient and 
effective?
    And Mr. Secretary, I am referring as well to 
transshipments, these goods that are shipped from countries of 
origin to a third party country that may end up in the United 
States and not be charged against the appropriate country. What 
sort of time frame could you give me on that?
    Mr. Garcia. A number of parts to your question, Mr. 
Chairman. Obviously, as you mentioned, those avenues of 
investigation, textile, cigarettes, key components of the 
traditional customs mission. I think I mentioned in my opening 
statement one recent example of our commitment to these 
traditional law enforcement areas. The largest cigarette 
counterfeiting case to date which was recently taken down, 
within the last week, showing ICE's commitment to this 
traditional enforcement area. That commitment carries across 
the board into all the areas you mentioned, IPR, textiles, all 
our trade enforcement authority as well.
    We approach it in two ways, one in the traditional area of 
enforcement, such as that recent cigarette case, and two in the 
area of vulnerabilities. Now, while we haven't seen, Mr. 
Chairman, direct links between violations of those rules and 
regulations in terrorist financing, they do provide an avenue 
for raising incredible amounts of illicit funds. I think the 
cigarette smuggling business alone is estimated to cost the 
U.S. a billion dollars, in lost revenue a year.
    They do provide tremendous opportunities for organized 
crime to raise money, and wherever you have that opportunity 
you have the vulnerability that those avenues could be 
exploited by terrorists or others intent on harming our 
homeland security. So we have a two-prong focus, of our 
traditional focus on enforcing the trade laws and our homeland 
security mission of closing down those vulnerabilities.
    Mr. Coble. Now, additional Customs agents were authorized, 
I believe last session, 50 I think. Now, what about 
transshipment? Are you directing additional attention to those?
    Mr. Garcia. Certainly, under both the theories that I just 
gave you. The Inbound diversions, where materials, cargo enters 
the country that is supposed to be destined to be transshipped, 
transited through the country, and be exported so it avoids 
certain duties and other obligations in the country, obviously 
poses a two-prong problem again. One, the economic impact of 
having people skirt the laws when other law-abiding businesses 
are playing by the rules. It has a tremendous economic impact 
on businesses in this country. And second, when you have 
containers that are transshipped that may not go through the 
same security, that are bonded or sealed and you have organized 
crime taking advantage of that mechanism to get items into the 
country, again you have a vulnerability, a vulnerability that 
could be exploited to harm our national security.
    So, again, taking that approach of the traditional 
importance of that as an economic crime and that as a potential 
to be exploited for homeland security reasons, we are very much 
committed to that traditional area of enforcement.
    Mr. Coble. Now, those additional agents, are you dividing 
so many with transshipments, so many to port----
    Mr. Garcia. Yeah.
    Mr. Coble.--control, et cetera?
    Mr. Garcia. I will get back to you.
    Mr. Coble. I would like to know more about that.
    Mr. Garcia. Certainly, Mr. Chairman.
    Mr. Coble. Admiral, in the old days you remember, and so do 
I, that when we were talking about port security operations, 
safety was the number one word. Now safety--I don't mean that 
safety has been abandoned, but now security certainly is 
alongside safety. Am I right about that?
    Admiral Collins. Yes, sir, absolutely.
    Mr. Coble. And I don't mean to suggest that we weren't 
concerned about security before, but in a less focused way.
    Admiral Collins. Clearly. You know, prior to 9/11 on a 
resource basis, we probably were allocating 2\1/2\ to 3 percent 
of our resource base to port security issues. That clearly 
transformed itself quite rapidly after 9/11, and we pulsed up 
at one point above 55 percent of our resource base, and that 
has trailed off with a combination of rebalancing and 
additional resources that have come into the Coast Guard. We 
are now about 20, 27 percent or so, 25 to 27 percent for that 
mission area.
    Mr. Coble. I will continue, Admiral Collins, on a second 
round. I see my red light is on. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I just wanted to follow 
through with that. 24 percent right now is the allocation of 
your resources toward what?
    Admiral Collins. Port security--port and coastal security, 
but always the devil is in the details with these numbers. If 
you added up all our law enforcement activity, drugs, migrants, 
illegal fishing, and of course our ECZs, and along with port 
security, coastal security efforts, they represent about half 
of our budget. It is about half of our budget. And the other 
half falls at, you know, the traditional missions of marine 
safety, search and rescue, marine environmental protection, ice 
breaking, aids to navigation, and so forth. So it is about 
evenly split between the two. And if you look at our 
performance in those missions, I think you will see in our 
budget and brief document that goes along with our budget a 
fairly consistent high performance on all those areas, even 
with resource adjustments.
    Mr. Scott. You indicated that you had had seizures of 
drugs. Do you have any idea what portion of the drugs that are 
coming into the Nation that you actually intercept?
    Admiral Collins. Certainly. We have a--there is about 540 
tons estimated that is moving through the maritime into the 
United States or toward Europe. We have goals of seizure rate 
goals and removal rate goals. Removal is those that we don't 
see but are abandoned by the trafficker as we chase them at 
sea. But currently it is 68 tons of that amount is what we are 
in fact interdicting.
    Mr. Scott. 10 to 15 percent?
    Admiral Collins. Right. That is the seizure rate and a 
removal rate if you will count all that abandoned, discarded, 
thrown over the side----
    Mr. Scott. 85 percent of the drugs sent to the United 
States, 85 percent--85 to 90 percent actually get through in 
your guesstimate, because you obviously don't know?
    Admiral Collins. These estimates change year by year. Some 
portion of that is going to Europe, and I can get you the 
specific distribution and the current estimates of that flow.
    Mr. Scott. I would appreciate that.
    Mr. Basham, I understand that 5 minutes didn't allow you to 
give a full presentation on how we are working with the 
boarding, counterfeiting of $20 bills. Do you want to say 
something about how well we are doing or what the challenges 
are?
    Mr. Basham. Actually, as you are aware, Mr. Scott, the 
redesign of the 20 just came out this past spring, and it is a 
bit early to tell as to the effects of the redesign and the 
security features. We are not seeing a large number of 
counterfeit 20's getting into circulation, but as a matter of 
fact, I happen to have a couple of samples of the counterfeit 
that we just took out in the Seattle area, and to be quite 
honest with you, it is somewhat alarmingly close to the 
genuines. If you wish, I can have someone--have you----
    Mr. Scott. I don't know if you can show those to the 
camera. Just hold them up a little bit. Hold them up just in 
front of you.
    Mr. Basham. Well, I have a sample of genuine notes and then 
two samples of the counterfeit currency of the new redesigned 
20's. And with the exception of a somewhat noticeable flaw in 
the paper consistency, if you are at the Wal-Mart and you are 
clerking at the Wal-Mart, I suspect these would have gotten 
through. But it is not--at this point we are not----
    Mr. Scott. Now, most of the tests that are usually given 
are some marker that--do those work on the counterfeits?
    Mr. Basham. No. But it is a deterrent for those who do not 
know. But it doesn't work--it will give you an indication, but 
it doesn't work in every case. So it is not a reliable way of 
determining counterfeit----
    Mr. Scott. Is there any cheap, reliable way that you can 
tell?
    Mr. Basham. There is no cheap, reliable way of detecting 
it. Because of the confidence that the American public has in 
its currency usually it just passes through one hand to the 
next and finally getting into the Federal Reserve System, and 
that is where the majority of it is found.
    Mr. Coble. Thank you, Mr. Scott. We have been joined by the 
distinguished lady from Texas, Ms. Sheila Jackson Lee. Good to 
have you with us, Ms. Jackson Lee.
    Mr. Feeney, the gentleman from Florida.
    Mr. Feeney. Thank you, Mr. Chairman. It seems like another 
deterrent to counterfeiting 20's is that, counterfeit or not, a 
20 doesn't get you very far anymore.
    Admiral, I was interested in your testimony. In Florida we 
have more coastline than the rest of the eastern seaboard put 
together. We have got 14 deepwater seaports. We have challenges 
in Port Canaveral, for example, which is the only place I know 
of on the planet that within 35 miles you can get into the air, 
you can travel by rail, by road or in international space. And 
of course we have got both a very large passenger port 
capacity, and we have got some military applications, and we 
have got a very large cargo. And I heard you describe the 
increasing interactivity between your agencies, intelligence, 
for example, the Immigration Service which is the important--I 
am interested in knowing how we are doing as we establish the 
Homeland Security Department, specifically relating to the 
Coast Guard working with local law enforcement.
    Florida has a pretty comprehensive homeland security 
approach. We have got port security. We have got the harbor 
pilots that obviously have interest in this regard. We have got 
the cargo aspects of the port, and I thought maybe you would 
share with us how you are dealing with our local law 
enforcement, our sheriffs, our port security, et cetera.
    Admiral Collins. Sure. I would be pleased to. I should 
probably note up front that Florida is probably one of the more 
I think aggressive States in dealing with security and the 
strategy to deal with security.
    Mr. Feeney. Thank you. I was Speaker of the House when we 
adopted that plan. So I will take that as a compliment.
    Admiral Collins. It certainly is, and we have developed 
over the years not only for security but in other mission 
areas, search and rescue and boating safety, a whole host of 
things, a very close relationship with the marine patrol and 
other elements within Florida.
    I should note that the Maritime Transportation Security Act 
requires the development of a new security regime across the 
United States, including Florida. We have been in dialogue with 
the Governor's office and others within Florida on how that is 
supposed to roll out. We have created a local captain of the 
port--by captain of the port jurisdictions, area maritime 
security committees that are required by the Maritime 
Transportation Security Act of 2002. Those have robust 
participation, local, port authorities and State figures as 
well as our DHS partners, and it becomes the clearinghouse to 
coordinate the development of security plans and security 
operations at each port.
    You take Miami, for example, there is a terrific 
coordination in the Port of Miami. Every time a cruise ship 
comes in, how you deal with that cruise ship, what is the 
division of labor between local, small boat resources, State 
resources and Coast Guard, and that is done in a coordinating 
fashion to ensure the appropriate security.
    So day-to-day operations are coordinated through the 
captain of port, and other entities like the Joint Terrorist 
Task Force, between FBI, DHS and local folks, and through those 
various mediums coordinating mechanisms, I think we are doing 
terrific stuff. And the Maritime Transportation Security Act 
promises in its coordinating mechanisms of the area maritime 
security committee--promises even closer collaboration going 
forward.
    Mr. Feeney. Thank you. Secretary Garcia, I appreciate your 
testimony. I had a chance to speak with you about some issues 
earlier. And one of the things I am interested in as we put 
together this new Homeland Security Department, it is a baby in 
time, but it is a huge baby, and there are some real 
challenges, including in your department. And there have been 
suggestions that as your mission gets broader, you lose focus. 
I mean, there have been some recent arguments that suggest that 
the agency is losing identity, for example, that the mission 
itself is becoming diluted, that the direction is in some ways 
being lost and that of course there are always people 
displeased by any change. There are some suggestions that 
morale is low in the agency.
    I appreciate the fact that we have got interconnectivity 
between the different challenges that you have, but you have a 
big task now ahead of you, and can you address sort of how you 
are going to keep an agency whose mission gets much broader 
also focused and efficient?
    Mr. Garcia. Certainly, Congressman. I think it is important 
to step back, as you say, and look at what we have done here, 
and that is to merge tremendous organizations with different 
history, different culture, different worker rules into one new 
law enforcement agency.
    If you had told Customs agents, Immigration agents 18 
months ago that they were working under--would be working under 
the same agency umbrella today, they would have looked at you 
in disbelief, and that is what we have done. And that is only 
on the agent side. We have brought Federal Protective Service 
in, the Federal Air Marshals in, Detention and Removal into 
this umbrella, Intelligence assets.
    There are cultural differences. There are differences in 
work rules and journeyman levels, in administrative support 
systems. You can imagine, in your experience with bureaucracies 
and Government agencies the tremendous challenge of putting 
those together, and at the same time ensuring that we don't 
fall back at all in our traditional missions as we have 
discussed some today, that we continue to push forward on 
narcotics and smuggling and export enforcement and launch new 
programs under a new organization.
    What have we accomplished? We changed--really changed the 
face of law enforcement, reorganized those investigative assets 
into a unified law enforcement system of 25 unified field 
offices across the country reporting up one chain into a new 
headquarters structure with new program boxes--predator, with 
human rights violators and other programs new to the Department 
of Homeland Security. There is anxiety in change, and that is 
certainly so. And there are challenges.
    What we have to do is get the information out to the field. 
I visited 22 of our 25 field offices I have just mentioned 
within the past year. I have done town halls. I do regular 
messagings. I have noticed actually a change in the anxiety 
level, and it has gone down as we get forward on our path, as 
we announce our permanent leadership which we continue to do. 
In fact, most of it is now in place, and we move forward and 
gain ground. And as we bring these new tools to bear in 
different ways, as we show and demonstrate our commitment to 
the traditional mission about our ability to do things 
differently now, our ability to create new culture and a new 
organization, and we see that----
    Mr. Coble. Mr. Garcia, the time has expired. We can 
continue that on the second round.
    The gentlelady from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
thank both you and the Ranking Member for making sure we didn't 
miss this very important hearing. I think as the headlines have 
challenged us over the last couple of days on the vulnerability 
of our intelligence and intelligence gathering, to understand 
the law enforcement components of homeland security I think are 
extremely vital.
    Let me take a moment of personal privilege and congratulate 
our JTTF in Houston and add my appreciation to Richard Garcia, 
the special agent in charge. The FBI is not here, but the 
special agent in charge who was a key component to that task 
force, because we just hosted one of the super events of the 
world, the Super Bowl, and I am here to tell you that we are 
safe and sound, and we are very appreciative of all of the 
agencies that participated, which include the Secret Service 
and the Customs and the ICE and a number of others. And I know 
that the Coast Guard was carefully handling the port at the 
same time. So we appreciate the work that was done over these 
past couple of days, and I want to make note of that as a 
public compliment.
    But I do want to focus on several aspects of your efforts 
and raise these questions overall and then, if you will, throw 
them to you gentlemen to answer.
    I want to get a status of our work with respect to identity 
theft which has become certainly a huge domestic concern, but 
it has impact with respect to terrorism as well. And so I want 
to see what strides we have made in dealing with international 
issues of identity theft, meaning those who are maybe traveling 
internationally or those who would use the identity of either 
someone from their place of residence or someone here in the 
United States that would help penetrate the borders and/or to 
do harm within the borders of the United States.
    With respect, Admiral, to the Coast Guard, let me raise a 
point of contention or a problem that we had in Houston, and 
that is weak land entry. Now, I know that you are in the 
waterways. My question to you is do you coordinate and have 
meetings with ports as relates to how they access--or how 
individuals are able to access by land but then may have them 
enter into the port land area and do harm on the waterways 
either by way of commandeering a small boat, if you will, or 
some other harm? Is there a constant dialogue with port 
leadership of respective ports so that your work is not simply 
on our byways? I am interested in that issue, and I would be 
interested in your comment on your Coast Guard intelligence 
coordination centers and whether or not they are working and do 
they work land and sea as well.
    I would appreciate, and I guess this requires sort of a 
simple sentence, because I am giving a number of questions, but 
I would like to get these on the record, your thoughts about 
the budget for 2005 as it relates to each of your segments. And 
then I would be interested in any particular needs that you 
need as we look toward legislative activity in 2004 and/or 
budgetary at this time.
    But I think, gentlemen, if you can start off with this 
whole idea of intelligence, and do you feel that you are fixing 
the loopholes in your intelligence--in our capability, if you 
will, or the sharing of intelligence. I think that is key for 
me. And then you can go into the respective questions that I 
have asked you. And I thank you. Mr. Basham, you might want to 
start.
    Mr. Basham. With respect to the sharing of intelligence, as 
you are aware, the Department of Homeland Security has been 
very aggressive in putting together and bringing together a 
number of the components within that department to share 
information, disseminate information. We are involved with the 
Terrorism Threat Integration Center. They have stood up the 
Homeland Security Operations Center. We are constantly working 
with the Department as well as with other departments within 
Government to ensure that the information that we obtain is 
shared and that they are quite frankly doing exceptionally well 
in sharing information with the Secret Service and the 
Department of Homeland Security.
    So I think we have made some great strides in that area, 
and I think it will continue to improve. And I am sure my 
colleagues here would agree.
    Ms. Jackson Lee. How many notches up from 9/11? Five 
notches, six notches, two notches up?
    Mr. Basham. A grading scale, I would hesitate to grade it. 
I can only say that I think it has improved considerably over 
the time prior to 9/11, just because we are all now together 
sharing information at one location, and so therefore I feel it 
has improved considerably. I will defer to my colleagues here 
if they have----
    Mr. Coble. The gentleman's time is expired. So if you all 
could answer her remaining questions as tersely as you can.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Garcia. Thank you. I would echo what Director Basham 
has said in terms of intelligence sharing. Obviously, I think 
it was pointed out originally how important that is. In post-9/
11 we are all under one agency roof. We all share into the DHS 
facility as well as across agency and department lines and I 
have seen tremendous improvement in that from my days even back 
in the Department of Justice when I worked terrorism issues in 
New York.
    In terms of the budget, I saw some tremendous advances in 
2005 in enhancements, a 10 percent overall increase related to 
institutional removal, international program, compliance 
enforcement and our air and marine division. Enhancements that 
will make us an even more effective homeland security law 
enforcement agency in the years to come.
    Ms. Jackson Lee. Admiral.
    Admiral Collins. In terms of--I echo the comments of my 
colleagues here in terms of information sharing and intel 
collection. I think it is getting better and better and better 
every day, and the big reason is we are under the same roof, 
have common goals, one team, one fight, sharing staff. I have 
staff in ICE. ICE has staff in my operation. We are sharing our 
intel databases, ready access into the maritime database from 
other agencies and vice versa. We are doing collaborative 
screening. In other words, vessels and people and cargo coming 
into the United States, we are doing collaborative screening. 
We are doing screening collaboratively with FBI and ICE and 
Customs and so forth.
    So I think the combination of those features, whatever the 
notch equals--I am not sure what a notch equals but a number of 
notches we have increased, and I think we will get better and 
better all the time.
    Also what is very, very positive to me is that we have in 
the maritime created a tiered intel organization, an 
information sharing organization at the local level, at our 
area level, the middle management level and at the headquarters 
level in Washington, and it is a tier structure that allows a 
great deal of information flow into the maritime community.
    So to answer your question about Houston, we have a field 
intelligence support team that is a giant team. It is made up 
of Coast Guard, our DHS partners, the State police, the local 
port authorities and others, and it can bring and get a common 
operating picture of the port and all the things that impact 
the port.
    I think that is a very, very positive development, and more 
of that to come. Thank you.
    Mr. Coble. Ms. Jackson Lee, we are going to have a second 
round so that we can come back to your remaining questions.
    Ms. Jackson Lee. Thank you.
    Mr. Coble. We will start our second round now.
    Ms. Jackson Lee. Will the gentleman yield?
    Let me just apologize. For my coming in from Houston, the 
planes were delayed in bad weather, and I apologize for that. 
If I am not here for the second round, I have a bill on the 
floor, and I will submit my questions for the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Coble. Reclaiming my time, let me extend kudos to you 
all having hosted a very fine Super Bowl. And since my team did 
not win--that is a game, folks, that I think neither team 
should have lost.
    Ms. Jackson Lee. Mr. Chairman, you have nothing to be 
ashamed of. Those young men from all of the Carolinas were 
dynamic--and I hope the witnesses will allow us this exchange--
but they were outstanding and you are absolutely right, they 
were both winners on the field.
    Mr. Coble. This has nothing to do with the issue at hand. I 
have had more people come to me in recent days and they will 
say, Bobby--Mr. Scott--best Super Bowl I ever saw. Kudos to 
you.
    Ms. Jackson Lee. Absolutely. Come back again.
    Mr. Coble. I wasn't there. I saw it on TV.
    Admiral, when I hear ``Coast Guard,'' I think search and 
rescue, aids to navigation, drug interdiction, et cetera.
    A, have those bread-and-butter issues that you all have 
been doing since 1790, have they been adversely affected, or if 
not adversely affected, compromised as a result of additional 
food on your plate? A.
    Number B, how about the coordination of efforts with the 
Navy regarding maritime homeland security?
    I guess that would be one and the same question.
    Admiral Collins. Mr. Chairman, I don't think so. I think 
the search and rescue standards, we are not walking away from 
those a bit. In other words, being on scene within a certain 
time frame after the initial call notification, we are adhering 
to that. We saved well over 5,000 people last year in the 
United States who are alive today because we were around. So we 
are attending to that.
    We are exceeding our performance standards for search and 
rescue. We are exceeding our performance standards relative to 
aids to navigation. We are exceeding our performance standards 
relative to ice-breaking. I think we are working hard, we are 
meeting the performance standards across the board.
    It has been with the help of great partnering with State, 
local, and Federal to help us with that mission and our 
partners in DHA. That is one secret. The other secret is that 
our budget has grown. We have increased the capacity to do this 
work; from 2002 to the present our operating budget has 
increased over 50 percent. And we have grown our people force 
structure by over 10 percent. So that allows us to deal with 
some of these new demands.
    Mr. Coble. That is the answer I was hoping for. Oftentimes 
folks ask me, how about the Coast Guard? Can they still take 
care of their bread-and-butter issues? And I am glad to hear 
you say you can do that even though you are probably strapped.
    The gentlelady from Texas asked you about identity theft. I 
do not think you got into that. How about getting your oars 
into those waters?
    Mr. Basham. Thank you for the opportunity.
    Last year we launched a very aggressive initiative on 
identity theft. And as a matter of fact, we have provided 
training to State and local law enforcement to, first of all, 
help them identify what identity theft is really about; and if 
they come upon a situation where they think they have an issue, 
how they should preserve the evidence in a case of that. We 
have sent over 40,000 CD-ROMs to State and local law 
enforcement entities out there to show best practices, to show 
them how they go about working a case of this nature. In fact, 
we are in the second printing or the second rendition of that 
CD-ROM on identity theft.
    And so we are very aggressively working that issue and we 
feel that it is going to have a very positive effect. The 
Secret Service is very involved--continues to be involved 
working with our partners out there.
    Mr. Coble. Thank you, Mr. Basham. I still have a little 
time left. You all have not responded to my earlier concern--
and I hope it is because it is not a problem--and that is turf 
battles. You have read about it as far as you all are 
concerned.
    Can we assume that is not taking a lot of your time?
    Mr. Basham. I can say, originally, Mr. Chairman, it was 
somewhat a concern to the Secret Service; and I am sure you 
were aware of that, as you expressed. However, we have found 
that that has not been a problem for us. It is not a 
distraction for our agents. In fact, we are working very, very 
close with ICE out there and task forces.
    We have a very robust effort under way within DHS to deal 
with financial crimes and financial infrastructure protections, 
working with ICE as a partner. So we feel it has enhanced the 
Government's ability to deal with those issues. And so I feel 
very, very strongly that it has improved and it is not a 
concern.
    Mr. Coble. You all concur? Admiral?
    Admiral Collins. Absolutely. And if you look at some of the 
major initiatives that we are launching, it was done in a 
collaborative way. Container security, for example, is a close 
partnership between TSA, legacy Customs and the Coast Guard and 
others, including NARAD from the Department of Transportation.
    If you look at the efforts with migration and migration 
interdiction between ICE and the Coast Guard, and drug 
interdiction, many of those have been enabled with ICE aircraft 
and Coast Guard cutters working together in a collaborative way 
and getting terrific results. There are coordinating mechanisms 
built into our Department to allow for coordination across the 
organizational elements.
    The Coast Guard attends the operations policy weekly 
council meeting in BTS every week to compare notes on where we 
are going and how we can coordinate better. I feel very 
positive about, it and where there are seams, there are efforts 
under way look at those seams and how we deal with them 
together.
    Mr. Coble. I am glad to hear that.
    Mr. Secretary, do you concur?
    Mr. Garcia. Yes, I do, Mr. Chairman. We work with the Coast 
Guard very closely across the board.
    One recent case we had down in the Everglades, port 
security, where the Coast Guard invited us into their 
investigation to assist; and we did some great work together 
down there.
    As Director Basham said, we work very, very closely in the 
financial crimes area. Echoing your opening remarks, after 9/
11, there really is no place for turf battles. There are issues 
where there has to be coordination, and we are working at 
better coordination at this table with our partner agencies.
    Mr. Coble. Glad to hear it.
    The gentleman from Virginia.
    Mr. Scott. Mr. Basham, I wanted to follow up on the ID 
fraud. We have seen TV ads where one credit card company will 
show its fraud alerts and will void charges being charged to 
one person; they will cancel the charges and whatnot.
    When they find that a charge was improperly done, do they 
routinely report it to the criminal justice people, or do they 
just write it off and issue a new card and keep going?
    Mr. Basham. I think a number of the credit card companies 
accept a certain level of risk. And now, to the percentage of 
ones they actually write off versus charging it back to a 
merchant, I can get that information.
    Mr. Scott. Do they report it to a criminal justice 
authority for prosecution, for investigation and prosecution?
    Mr. Basham. Well, the only times I can comment on that is 
when we are actually contacted, which is frequently that we are 
contacted. We work very closely with the credit card companies, 
particularly if we find----
    Mr. Scott. If you find that a charge--and I have had a card 
where I don't know how they got the number or whatever, but the 
charges were improperly being put on a credit card. I reported 
it. They canceled the charges and I got a new card.
    Okay, does anybody prosecute that? Investigate it? Do you 
have the resources to investigate cases like that?
    Mr. Basham. On a singular charge against an individual's 
credit card? I can't say that we have the resources to track 
down----
    Mr. Scott. If you had more resources, could you track down 
situations like that so that people would stop doing it?
    Mr. Basham. Yes, we could.
    Mr. Scott. If you had more resources?
    Mr. Basham. If we had more resources, we certainly could.
    Mr. Scott. We will see what we can do.
    I look forward to you testifying in favor of a bill that I 
have introduced to give you those resources.
    Mr. Basham. I will be honored to.
    Mr. Scott. We have heard all about the coordination between 
the agencies. One of the downsides of that is, some agencies 
can get information a little bit easier and more casually, 
particularly if they are using the foreign intelligence side of 
the criminal justice system, than other agencies.
    Can you say a little bit about how law enforcement works 
cooperatively with agencies that are acquiring information 
under the Foreign Intelligence Surveillance Act for which 
probable cause is not needed?
    Mr. Garcia. If I could take the first shot at answering 
that, perhaps.
    One, as you point out, Congressman, the FBI has primary 
domestic foreign intelligence collection capability under FISA 
and the other intelligence statutes, domestic collection 
authority. There are other probable cause and other 
requirements under that statute, but they are different from 
the----
    Mr. Scott. Under FISA you do not need the probable cause of 
a crime. In fact, you don't need a crime. It can be anything--
foreign intelligence, they can get the information.
    In the old days, they couldn't use it on the criminal side, 
and so there was no incentive to abuse the foreign intelligence 
collection to try to run a criminal investigation without 
probable cause.
    Now that everybody is sharing everything, you have an 
incentive to abuse the foreign intelligence, and somebody on 
the criminal side can ask one of their buddies, I have a hunch, 
no probable cause, just a hunch, can you use FISA to listen in 
a little while, to see if we can find something out? When you 
are sharing all of this information, going back and forth, that 
can be a problem. In the old days, since you couldn't share, 
there was no point in asking. If they found anything, you 
couldn't use it.
    My question is, with all of this information-sharing, do 
you have people who are using FISA to get information, sharing 
that information with everybody else that--nice to hear it, but 
couldn't have gotten it on their own?
    Mr. Garcia. I will give you my perspective from ICE on 
that.
    Obviously, as I said, FBI has primary collection authority 
on that; I think the collection authority in that area is under 
FISA. We participate with the FBI and joint terrorist task 
force's cases by nature aimed at terrorist financing, terrorist 
support, terrorist plots in the United States.
    Our agents, as part of that task force, would have some 
access to the information collected by the FBI under the rules 
governing information-sharing, the PATRIOT Act and the rules 
that were in place before that. Those agents participate in a 
task force setting and have access, as needed, as I understand 
it, to that information on particular cases governed by the 
rules for that sharing that are now in place.
    Mr. Basham. Actually, I would echo that. We, as well, 
participate in the joint terrorism task forces, and a great 
deal of that information is compartmentalized. And it is not 
shared across all agencies, but only those agencies that have a 
specific interest or a specific jurisdiction that it deals 
with.
    So I would say that with respect to protecting that 
information, as best you can under that setting, they are very 
cognizant of the need to do that. That has been our experience 
with it.
    Mr. Coble. We will have one more quick round, Mr. Scott.
    Mr. Scott. Mr. Garcia, you indicated that when you catch 
smugglers, they could have used the methodology to smuggle 
weapons of mass destruction with the same methodology that they 
are smuggling drugs and people, ``they could.'' .
    Do you have any evidence that they are using the same 
methodology?
    Mr. Garcia. No, Congressman. What our approach is is that 
certainly the vulnerability exists. If, particularly in that 
case, we have people with access to sensitive areas of a 
facility, an airport, the danger exists or the potential exists 
that they would take advantage of that access to move weapons 
or move WMD components through the airports or across the 
border.
    Certainly, these are organized criminal enterprises driven 
by profit. Where the profit was greater, that is where we 
believe that criminal activity would be focused. So if 
terrorists or others looking to harm----
    Mr. Scott. You do not have any evidence that they actually 
have--let me ask you, I have several other questions that I am 
try trying to get in quickly.
    Is ICE working with the State Department on visa issuance?
    Mr. Garcia. In the visa security unit, yes, Congressman. 
That was, up until recently, run by Asa Hutchinson at the 
bureau level, BTS level. It is now operationally within ICE.
    We have signed an MOU with the State Department to govern 
procedures. DHS has signed in terms of visa issuance. We are 
now in the process of implementing that, getting funding for 
that program. As of today, the only DHS personnel overseas are 
in Riyadh and Jedda, Saudi Arabia, as required by the statute. 
We are now coming up with a plan for further expansion of the 
visa security unit overseas working with our partners at the 
State Department.
    Mr. Scott. When there are violations, how much 
prosecutorial discretion do you have? Do you have any 
prosecutorial discretion if you have violations of visa 
procedures?
    Mr. Garcia. Most of the visa law enforcement authority 
rests with diplomatic security of the State Department 
overseas. Under the terms of the MOU, we work with diplomatic 
security to look at investigations that would result from the 
visa process and see which ones of those would be amenable to 
presentation for prosecution. Ultimately, the decision for that 
would rest with the U.S. attorney's office.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Coble. I have one more, too, and then we will wrap it 
up.
    Mr. Secretary, would you classify the intelligence that 
your office gathers as responding to domestic threats or 
foreign threats? Is it possible to separate the two? To what 
extent is your domestic intelligence work integrated with your 
foreign intelligence work?
    I am piling on here. I am giving you four or five 
questions.
    As to the mission of the office, it appears very similar to 
me to that of the FBI and the DEA, for example. Explain whether 
and how the Office of Intelligence is duplicating or 
complementing the work of the other law enforcement agencies 
responsible for domestic intelligence. What are the unique 
responsibilities of your office compared to the other offices?
    And if you would, explain any plans for the sharing of 
intelligence amongst the other agencies.
    And what role does the Terrorist Threat Integration Center 
play in all of this?
    Mr. Garcia. Certainly.
    Mr. Chairman, ICE collects law enforcement information. As 
I pointed out in response to Congressman Scott's question, we 
do not have domestic intelligence-gathering capability. Our 
capability to gather intelligence is essentially to gather law 
enforcement information, case-related information, operational 
information.
    We have different divisions in ICE that provide different 
types of information to our Central Intelligence Division, our 
main division for intelligence responsibilities. The Federal 
Protective Service gathers information about violations on 
Federal property; 8,000 buildings they protect nationwide. The 
FAMS have a civil aviation piece, bringing in information about 
violations in their particular domain--investigations, broad 
authorities, tremendous information. Detention and removal, 
moving more people through their system than the Bureau of 
Prisons last year, has a similar capability to collect 
information from that community. All, merging with ICE.
    As you can see, very different branches and types of 
information-collecting information can be used operationally by 
ICE. For example, human trafficking information. Someone 
stopped on the border may have a phone number that links up 
with a case in Newark. We use that to drive our cases.
    We share across our divisions, clearly. We also share 
laterally and across the board and upwards. We participate with 
the IAIP, the DHS primary intel group. The TTIC, we have 
personnel assigned to the TTIC on a full-time basis where we 
have access to all our systems. We are part of the terrorist 
screening center. We have personnel assigned to the CIA and we 
brief on specific issues.
    So we take advantage of all of those opportunities to make 
our information available upwards into DHA, into the TTIC and 
across to our agencies sitting here and in other departments, 
and then we brief on specific issues. We briefed the FBI, in 
fact, within the last week on an issue that we uncovered that 
we thought was particularly important.
    Mr. Coble. Thank you, sir.
    And one final question, Mr. Scott.
    Mr. Scott. One final question, Admiral Collins. You 
indicated that your guesstimate--obviously, we do not know for 
sure--85 to 90 percent of the drugs trying to get into the 
United States actually make it. We are stopping 10 to 15 
percent. Is getting it down to 50 percent a realistic goal?
    Admiral Collins. I think you have got to look at it. There 
is not one silver bullet. There are a number of different 
strategies that are being pursued aggressively under the 
coordination of ONDCP that looks at source country strategy, 
interdiction zone strategy and so forth. And I think, hit it 
high, hit it low, and hit it in between, also focusing on 
demand and supply; and a combination of that multifaceted 
approach yields tremendous results.
    Mr. Scott. I see on the supply side if people do not want 
as much drugs, you could reduce it. How much would it cost? I 
mean, in terms of----
    Admiral Collins. I think it is a multifaceted approach. I 
was just down at the Joint Interagency Task Force South in Key 
West, which coordinates all the interdiction efforts for the 
United States out of that southern vector coming into the 
United States; and they had a substantial Colombian delegation, 
the minister of defense and others, briefing on the progress 
they are making in country. It is very, very impressive.
    And I think the combination of a dedicated, focused, 
professional military really turned around in Colombia and 
committed to administration in Colombia, along with a solid 
effort in the interdiction zone--I think we have a window of 
opportunity to go and undermine this whole operation.
    Mr. Scott. The reason I ask that is, I read there is one 
study that said if you wanted to reduce drug use by 1 percent 
in America, you could spend $30 million on drug rehab, about 
$300 million on prisons, or a billion dollars on interdiction.
    Admiral Collins. Like I said, I don't think there is any 
one individual solution. It is multifaceted. And you have got 
to be very proactive in supporting Colombia and the great 
things they are doing as a country, in country.
    Mr. Scott. And that costs us about a billion dollars.
    Admiral Collins. It is a huge payoff, I think. And in the 
interdiction zone and on the demand side, it is multifaceted. 
If you look at the national strategy on this issue, it----
    Mr. Scott. We are at 85, 90 and catching 10 to 15 percent 
now. How much more money will it cost to get it down much 
further? Are we talking billions?
    Admiral Collins. I don't have at the tip of my fingers a 
number for you, Congressman.
    Mr. Coble. I thank the gentleman. I think this has been a 
good productive hearing, and we thank you all for your 
contribution. This concludes the oversight hearing on law 
enforcement efforts within the Department of Homeland Security.
    The record will remain open for 1 week, and gentlemen, I 
have additional questions that I am going to submit in writing, 
and we will look forward to hearing from you.
    Mr. Scott, do you have any written questions that you want 
to submit?
    Mr. Scott. No.
    Mr. Coble. If you will respond, the record will remain open 
for 1 week. Thank you again for your attendance, and the 
Subcommittee stands adjourned.
    [Whereupon, at 2:20 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

             Post-Hearing Questions and Responses from the 
                       Honorable W. Ralph Basham

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Post-Hearing Questions and Responses from Admiral Thomas H. Collins

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Post-Hearing Questions and Responses from the Honorable Michael Garcia

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
